Report No. DODIG-2013-003              October 19, 2012




      Army Contracting Command - Aberdeen Proving
       Ground Contracting Center's Management of
      Noncompetitive Awards Was Generally Justified
Additional Information
To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                       Department of Defense Office of Inspector General
                       Office of the Deputy Inspector General for Auditing
                       ATTN: Audit Suggestions/13F25-04
                       4800 Mark Center Drive
                       Alexandria, VA 22350-1500




Acronyms
ACC-APG                       Army Contracting Command – Aberdeen Proving Ground
FAR                           Federal Acquisition Regulation
FPDS-NG                       Federal Procurement Data System – Next Generation
J&A                           Justification and Approval
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500




                                                                          October 19, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 T ECHNOLOGY, AND LOGISTICS     '
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Army Contracting Command - Aberdeen Proving Ground Contracting
         Center's Management ofNoncompetitive Awards Was Generally Justified
         (Report No. DODJG~2013-003)

We are providing this report for your information and use. U .S. Army Contracting
Command - Aberdeen Proving Ground Contracting Center, personnel adequately
justified contracts as sole source for 28 of the 30 noncompetitive. contracts we reviewed.
However, contracting personnel did not provide adequate justification for the
noncompetitive award oftwo contracts with an obligated value of about $29 million.
This report is the sixth in a series of audit reports on DoD contracts awarded without
competition. We considered manage11"1ent comments on a draft of this report when
preparing the final report.

Comments on the draft of this report conformed to the requirements of DoD D irective
7650.3 and left no umesolved issues. Therefore, we do not require any additional
comments.

We appreciate the courtesies extended to the staff. P lease direct questions to me at
(703) 604~9077 (DSN 664~9077).




                                           )tt~rd~ecc{.{~~~
                                              Assistant Inspector General
                                              Acquisition and Contract Management
Report No. DODIG-2013-003 (Project No. D2011-D000CG-0228.002)                October 19, 2012


      Results in Brief: Army Contracting
      Command – Aberdeen Proving Ground
      Contracting Center’s Management of
Noncompetitive Awards Was Generally Justified

What We Did                                            time after contract award as required by the
                                                       Federal Acquisition Regulation (FAR). Also,
Our objective was to determine whether DoD
                                                       ACC-APG contracting personnel did not have
noncompetitive contract awards were properly
                                                       adequate documentation justifying the award of
justified as sole source at the Army Contracting
                                                       one contract as sole source. In addition,
Command – Aberdeen Proving Ground
                                                       interested sources may not have been aware of
(ACC-APG) Contracting Center, Aberdeen,
                                                       actions they could have taken to compete for
Maryland. We reviewed 30 noncompetitive
                                                       nine contract awards because ACC-APG
contracts with a combined obligated value of
                                                       contracting personnel did not follow applicable
about $529.2 million that ACC-APG contracting
                                                       FAR guidance.
personnel awarded in FYs 2009 and 2010.
What We Found                                          What We Recommend
                                                       We recommend that the Executive Director,
ACC-APG contracting personnel adequately
                                                       ACC-APG:
justified contracts as sole source for 28 of the
                                                       • issue guidance establishing the number of
30 noncompetitive contracts. However,
                                                         days that a J&A must be approved within
contracting personnel did not provide adequate
                                                         when a contract is awarded before approval
justification for the noncompetitive award of
                                                         of a J&A, or require the contracting officer
two contracts. ACC-APG contracting personnel
                                                         to document the reason(s) for the delay;
did not:
                                                       • issue a memorandum emphasizing the
• approve the Justification and Approval
                                                         importance of completing a J&A in
    (J&A) until 462 days after contract award
                                                         accordance with FAR 6.303, adequately
    for one contract because of funding and
                                                         performing and documenting market
    organizational changes; or
                                                         research in accordance with FAR part 10,
• produce evidence that a J&A was completed
                                                         and including the statements required by
    or that market research was adequately
                                                         FAR 5.207; and
    documented for one contract. We made
                                                       • review the performance of the contracting
    multiple attempts to obtain the contract
                                                         officer who awarded noncompetitive
    documentation; however, ACC-APG
                                                         contract W15P7T-10-C-S225 to determine
    contracting personnel did not provide an
                                                         whether administrative action is warranted.
    adequate reason for why the documentation
    was not included in the contract file.             Management Comments and
In addition, ACC-APG contracting personnel
did not include one or both of the statements
                                                       Our Response
required in nine contracts to ensure that              The Army agreed with all four of our
interested sources were aware of actions they          recommendations. We consider the Army’s
can take to compete for the contracts.                 comments to be responsive. No further
As a result, ACC-APG contracting personnel             comments are required.
did not approve the J&A within a reasonable


                                                   i
Report No. DODIG-2013-003 (Project No. D2011-D000CG-0228.002)     October 19, 2012

Recommendations Table

       Management                Recommendations                  No Additional
                                Requiring Comment             Comments Required
Executive Director, U.S.                                 1, 2, 3, and 4
Army Contracting Command
– Aberdeen Proving Ground




                                       ii
Table of Contents

Introduction                                                                    1

      Objective                                                                 1
      Background                                                                1
      ACC-APG Contracting Center                                                1
      Contracts Reviewed                                                        2
      Review of Internal Controls                                               2

Finding. Contract Awards Were Generally Justified as Sole Source                3

      Contracting Personnel Adequately Supported 28 Sole-Source Determinations 4
      Contracting Personnel Awarded Two Noncompetitive Contracts
             Without Proper Justification                                       8
      Contracting Personnel Did Not Comply With FAR 5.207 for Nine
             Noncompetitive Contracts                                          11
      Conclusion                                                               12
      Recommendations, Management Comments, and Our Response                   13

Appendices

      A. Scope and Methodology                                                 15
            Universe and Sample Information                                    15
            Review of Documentation and Interviews                             16
            Use of Computer-Processed Data                                     17
            Use of Technical Assistance                                        17
            Prior Coverage                                                     17
      B. Federal Acquisition Regulation Criteria                               19
            Federal Acquisition Regulation Subpart 6.3, “Other Than Full and
                   Open Competition”                                           19
            FAR Subpart 5.2, “Synopses of Proposed Contract Actions”           20
            FAR Part 10, “Market Research”                                     21
      C. Noncompetitive Contracts Reviewed                                     22
      D. Adequate Justification and Approvals                                  26
      E. Market Research Conducted                                             29

Management Comments

      Department of the Army                                                   37
Introduction
Objective
Our objective was to determine whether DoD noncompetitive contract awards were
properly justified as sole source at the Army Contracting Command – Aberdeen Proving
Ground (ACC-APG) 1 Contracting Center, Aberdeen Proving Ground, Maryland. This
report is the sixth in a series of reports on DoD contracts awarded without competition.
See Appendix A for the scope and methodology and prior coverage related to the
objective.

Background
Full and open competition is the preferred method for Federal agencies to award
contracts. Section 2304, title 10, United States Code requires contracting officers to
promote and provide for full and open competition when soliciting offers and awarding
contracts. According to the Government Accountability Office, promoting competition
in Federal contracting presents the opportunity for significant cost savings and can help
improve contractor performance, prevent fraud, and promote accountability. Contracting
officers may use procedures other than full and competition under certain circumstances.
However, each contract awarded without providing for full and open competition must
conform to policies and requirements in Federal Acquisition Regulation (FAR)
Subpart 6.3, “Other Than Full and Open Competition.”

FAR subpart 6.3 prescribes the policies and requirements for contracting without full and
open competition. FAR Part 10, “Market Research,” prescribes policies and
requirements for conducting market research to arrive at the most suitable approach for
acquiring, distributing, and supporting supplies and services. FAR Subpart 5.2,
“Synopses of Proposed Contract Actions,” establishes policy to ensure agencies make
notices of proposed contract actions available to the public. Appendix B provides
additional explanation on FAR subpart 6.3, FAR part 10, and FAR subpart 5.2
requirements.

ACC-APG Contracting Center
ACC-APG Contracting Center is a full service, life-cycle acquisition organization, which
conducts market research and the solicitation, award, and administration of contracts,
grants, cooperative agreements, and other transactions according to the ACC-APG
Contracting Center Web site. The Web site states that ACC-APG Contracting Center
buys soldier equipment as well as laboratory equipment, communications equipment, and
chemical, biological, and nuclear items. ACC-APG Contracting Center also buys
services, including research and development services; and professional, administrative,


1
 This audit specifically reviewed contracts awarded by the U.S. Army Communications-Electronics
Command and the U.S. Army Research, Development and Engineering Command, Aberdeen Proving
Ground, Maryland.

                                                 1
and management services. In terms of contract support, ACC-APG Contracting Center
supports the U.S. Army Research, Development and Engineering Command and many
U.S. Army and DoD customers.

Contracts Reviewed
Our Federal Procurement Data System – Next Generation (FPDS-NG) queries identified
that ACC-APG contracting personnel awarded 147 noncompetitive C and D type
contracts 2 with an obligated value of about $2.9 billion during FYs 2009 and 2010.
We selected a nonstatistical sample of 37 contracts, totaling about $562.1 million, to
review. We excluded 7 contracts from our sample of 37 contracts because:

     •    two contracts were awarded under FAR Subpart 13.5, “Test Program for Certain
          Commercial Items,” and we did not review contracts awarded under this
          exception;
     •    two contracts were awarded for Foreign Military Sales;
     •    one contract was awarded under FAR Subpart 8.6, “Acquisition from Federal
          Prison Industries, Inc.,” and we did not review contracts awarded under this
          exception;
     •    one contract was transferred to Defense Logistics Agency Troop Support and the
          contract documentation was not available for review; and
     •    one contract was located at another installation in Orlando, Florida, and was not
          available for review.

After we excluded the 7 contracts, we reviewed 30 contracts with an obligated value of
about $529.2 million. See Appendix C for additional details on the noncompetitive
contracts reviewed.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. ACC-APG Contracting
Center’s internal controls over its processes for issuing the noncompetitive contract
awards we reviewed were effective as they applied to the audit objective.




2
 Defense Federal Acquisition Regulation Supplement 204.7003, “Basic PII Number,” defines C type
contracts as “[c]ontracts of all types except indefinite delivery contracts, sales contracts, and contracts
placed with or through other Government departments or agencies or against contracts placed by such
departments or agencies outside the DoD” and D type contracts as “[i]ndefinite delivery contracts.”

                                                       2
Finding. Contract Awards Were Generally
Justified as Sole Source
ACC-APG contracting personnel adequately justified contract awards as sole source for
28 of the 30 noncompetitive contracts with an obligated value of about $529.2 million.
ACC-APG contracting personnel documented compliance with content requirements in
FAR 6.303-2, “Content,” and obtained approval from the proper official as required by
FAR 6.304, “Approval of the Justification,” for the 29 Justification and Approvals
(J&As) we reviewed. 3 In addition, ACC-APG contracting personnel had an approved
J&A before awarding 26 noncompetitive contracts, as required by FAR 6.303,
“Justifications.” However, contracting personnel did not provide adequate justification
for the noncompetitive award of two contracts. Specifically, for the two noncompetitive
contracts, with an obligated value of about $29 million, contracting personnel did not:

    •    approve the J&A for other than full and open competition until 462 days after
         contract award for one contract because of funding problems and organizational
         changes; or
    •    produce evidence that a J&A was completed or that market research was
         adequately documented for one contract. We made multiple attempts to obtain
         the contract documentation; however, ACC-APG contracting personnel did not
         provide an adequate reason for why they did not include the documentation in the
         contract file.

ACC-APG contracting personnel also did not include one or both of the statements
required 4 in 9 of the 30 contracts to ensure that interested sources were aware of actions
they could take if interested in competing for noncompetitive contracts because
ACC-APG contracting personnel did not follow applicable FAR guidance.

As a result, ACC-APG contracting personnel did not approve the J&A within a
reasonable time after contract award, as required by FAR 6.303-1(d), “Requirements.”
Also, ACC-APG contracting personnel did not have adequate documentation justifying
the award of one contract as sole source, for which contracting personnel may have been
able to award the noncompetitive contract using full and open competition at a lower
price if additional sources were available to meet the Government’s needs. In addition,
interested sources may not have been aware of actions they could have taken to compete
for nine contract awards because ACC-APG contracting personnel did not follow
applicable guidance in FAR 5.207, “Preparation and Transmittal of Synopses.”




3
  ACC-APG contracting personnel did not provide a J&A for contract W15P7T-10-C-S225; therefore, we
reviewed 29 J&As.
4
  FAR 5.207(c)(14) requires a statement in the synopsis identifying the intended source and justifying the
lack of competition. FAR 5.207(c)(15) requires a statement in the synopsis that all responsible sources
may submit capability statements, proposals, or quotations to be considered.

                                                     3
Contracting Personnel Adequately Supported
28 Sole-Source Determinations
ACC-APG contracting personnel adequately supported the use of other than full and open
competition in the J&As for 28 of the 30 contracts. ACC-APG contracting personnel
                                  documented the required elements of FAR 6.303-2 in the
    ACC-APG contracting           29 J&As. ACC-APG contracting personnel obtained
    personnel adequately          approval from the proper official for each of the 29 J&As
  supported the use of other      and 26 J&As were approved before contract award.
      than full and open          FAR 6.302, “Circumstances Permitting Other Than Full
   competition in the J&As        and Open Competition,” lists the seven exceptions
  for 28 of the 30 contracts.     permitting contracting without full and open competition.
                                  A contracting officer must not begin negotiations for or
award a sole-source contract without providing full and open competition unless the
contracting officer justifies the use of such action in writing, certifies the accuracy and
completeness of the justification, and obtains approval of the justification.

ACC-APG contracting personnel appropriately documented the market research
conducted or provided adequate justification in the contract file when market research
was not conducted for 29 of the 30 contracts. ACC-APG contracting personnel
performed market research techniques identified in FAR Part 10, “Market Research,”
such as conducting Internet searches and contacting individuals in the industry for
26 contract awards that had adequate support documented in the contract file.

Contracting Personnel Complied With J&A
Content Requirements
ACC-APG personnel documented all the required J&A content requirements in the
29 J&As available for review. FAR 6.303-2 requires each J&A to contain sufficient facts
and rationale to justify the use of the specific authority cited. FAR 6.303-2 identifies the
minimum information that must be included in a J&A. For example, FAR 6.303-2
requires information, such as a description of the supplies or services required, to meet
the agency’s needs, the estimated value, and the statutory authority permitting other than
full and open competition.




                                             4
Contracting Personnel Appropriately Applied the Sole-Source
Authority Cited
ACC-APG contracting personnel applied the appropriate authority permitting other than
full and open competition in the 29 J&As 5 reviewed. ACC-APG contracting personnel
awarded:

    •   18 contracts citing the authority of FAR 6.302-1, “Only One Responsible Source
        and No Other Supplies or Services Will Satisfy Agency Requirements”;
    •   10 contracts citing the authority of FAR 6.302-2, “Unusual and Compelling
        Urgency”; and
    •   2 contracts citing the authority of FAR 6.302-3, “Industrial mobilization;
        engineering, developmental, or research capability; or expert services.”

For the 18 contracts that cited the authority of FAR 6.302-1, ACC-APG contracting
personnel provided adequate rationale in the J&A as to why only one contractor could
provide the required product or service and why only that product or service could meet
the Government’s requirements. For example, in the J&A for contract W15P7T-09-D-
K202, ACC-APG contracting personnel explained a contract was needed for the repair
and overhaul of Klystron Tubes. FAR 6.302-1(b) states the authority may be appropriate
when unique supplies or services are available from only one source or one supplier with
unique capabilities. ACC-APG contracting personnel explained in the J&A that the
contractor is the original equipment manufacturer of the Klystron Tubes and is the only
source with the detailed technical data needed to perform the required repair and overhaul
services. Therefore, ACC-APG contracting personnel adequately justified the sole source
award of the contract in accordance with FAR 6.302-1.

For 9 of the 10 contracts that cited the authority of FAR 6.302-2, ACC-APG contracting
personnel provided adequate rationale in the J&A that supported the unusual and
compelling urgency of the acquisition. For example, in the J&A for contract W911SR-
09-C-0028, ACC-APG contracting personnel explained the immediate need of 3-Stage
Portable Air-cooled High Pressure Compressors because the Consequence Management
Response Force teams were currently ill-equipped for the Joint Task Force Civil Support
mission because of the lack of these compressors. ACC-APG contracting personnel also
stated in the J&A that a delay in award could result in serious injury, loss of life, and/or
inestimable financial harm to the Government in the event of a chemical, biological,
radiological, nuclear, and high-yield explosive situation. FAR 6.302-2(c) imposes further
limitations on contract awards citing this authority.

Contracting personnel are required by FAR 6.302-2(c) to request offers from as many
potential sources as practicable. For contract W911SR-09-C-0028, the ACC-APG


5
  ACC-APG contracting personnel did not provide a J&A for contract W15P7T-10-C-S225; therefore, we
reviewed 29 J&As. ACC-APG contracting personnel awarded contract W15P7T-10-C-S225 citing the
authority of FAR 6.302-2.

                                                 5
contracting personnel explained in the J&A that no other contractor could provide the
compressor. Additionally, in the J&A, ACC-APG contracting personnel stated that the
tailored Joint Nuclear Biological Chemical Reconnaissance System Increment 2 systems
for military units tasked as Consequence Management Response Force teams are
currently using this particular compressor, which was identified as being the best suited
to the mission and incorporated into the standardization kit for Consequence
Management Response Force use.

ACC-APG contracting personnel awarded two contracts that cited the authority of
FAR 6.302-3. For both contracts, ACC-APG contracting personnel provided adequate
rationale in the J&A that supported using FAR 6.302-3. In the J&A for contract
W15P7T-09-C-C303, ACC-APG contracting personnel explained that a contract was
needed for weather/environmental intelligence software and support for the Distributed
Common Ground System-Army, including the Integrated Meteorological System and
Weather Analysis Tool. FAR 6.302-3(a) allows other than full and open competition
when it is necessary to establish or maintain an essential engineering, research, or
development capability to be provided by an educational or other nonprofit institution or
a federally funded research and development center. ACC-APG contracting personnel
explained in the J&A that it is necessary to maintain the capability because failure to
obtain support from the university laboratory would result in an inability to design and
implement unique weather applications needed for the Distributed Common Ground
System-Army in support of Operation Enduring Freedom/Operation Iraqi Freedom and
Overseas Contingency Operations. FAR 6.302-3(b) goes on to state the authority may be
appropriate to establish or maintain essential capability for engineering or developmental
work calling for the practical application of investigative findings or theories of a
scientific or technical nature. ACC-APG contracting personnel explained in the J&A that
the application is essential to provide critical information concerning severe weather
impacts on personnel, weapon systems and components, and mission operations. They
also explained in the J&A that the university laboratory has the experience and expertise
in the Army-unique meteorological applications for data collection, forecasting, and
modeling.

Contracting Personnel Generally Obtained Appropriate Approval
for Sole-Source Contract Awards
ACC-APG contracting personnel obtained approval from the appropriate official on the
29 J&As. FAR 6.304, “Approval of the Justification,” defines the proper approval
authority at various thresholds for the estimated dollar value of the contract including
options. For FYs 2009 and 2010, the FAR authorized the procuring contracting officer to
provide the final approval for proposed contract actions up to $550,000. The FAR also
authorized the competition advocate of the procuring activity to provide the final
approval for proposed contract actions of more than $550,000 but not exceeding
$11.5 million. The contracting officer appropriately approved four J&As with an
estimated value of $550,000 or less. The competition advocate appropriately approved
10 J&As, valued at more than $550,000 but not exceeding $11.5 million. The Principal
Assistant Responsible for Contracting, or a civilian in a position above GS-15 under the
general schedule, appropriately approved 14 J&As, valued at more than $11.5 million,

                                            6
but not exceeding $78.5 million. The Assistant Secretary of the Army (Acquisition,
Technology, and Logistics), approved the remaining J&A, valued at more than
$78.5 million, as required by FAR 6.304.

The designated official approved the J&A before contract award for 26 of the 29 J&As as
required by FAR 6.303, “Justifications.” However, FAR 6.303 allows justifications for
contracts awarded under FAR 6.302-2 to be prepared and approved within a reasonable
time after contract award when preparation and approval before award would
unreasonably delay the acquisitions. ACC-APG contracting personnel awarded three
contracts using the authority FAR 6.302-2 that did not have an approved J&A in place at
the time of contract award. ACC-APG contracting personnel awarded contract
W15P7T-09-C-C014, and 21 days later the appropriate official approved the J&A.
ACC-APG contracting personnel awarded contract W15P7T-09-C-N201, and 70 days
later, the appropriate official approved the J&A. Although ACC-APG contracting
personnel awarded these contracts before the designated official approved the J&As, they
were in compliance with FAR 6.303. ACC-APG contracting personnel awarded contract
W15P7T-10-C-S230, and 462 days later the appropriate official approved the J&A.
However, 462 days is not a reasonable amount of time and therefore not in compliance
with FAR 6.303. See Appendix D for additional information on justifications and J&A
content and approvals.

Contracting Personnel Appropriately Documented the Market
Research Efforts and the Results
ACC-APG contracting personnel appropriately documented the market research
conducted or provided adequate justification in the contract file when market research
was not conducted for 29 of the 30 noncompetitive contracts in accordance with
FAR part 10. FAR part 10 states that agencies should document the results of market
                                      research in a manner appropriate to the size and
        ACC-APG contracting           complexity of the acquisition. FAR 10.002,
       personnel appropriately        “Procedures,” states the extent of market research
  documented the market research will vary, depending on such factors as urgency,
  conducted or provided adequate      estimated dollar value, complexity, and past
   justification in the contract file experience. ACC-APG contracting personnel
   when market research was not       performed market research techniques identified in
       conducted for 29 of the        FAR part 10 for 26 of the 30 contract awards that
   30 noncompetitive contracts…       had adequate support documented in the contract
                                      file. For example, ACC-APG contracting
personnel conducted Internet searches and contacted knowledgeable individuals in
industry for the 26 noncompetitive awards with estimated J&A values ranging from
$290,540 to about $2.84 billion. ACC-APG contracting personnel documented the
techniques performed and the subsequent results in each of the 26 contract files.

ACC-APG contracting personnel did not conduct market research in 3 of the
30 instances; however, contracting personnel provided adequate documentation in the
contract file to support the 3 determinations. For example, ACC-APG contracting
personnel did not conduct market research for contract W911SR-10-C-0037 because

                                           7
none of the other companies capable of performing the same type of work possessed the
technical data package to begin or complete the work to build the system. Therefore, the
time and substantial cost associated to bring any of these companies up to speed to meet
this urgency was not possible. ACC-APG contracting personnel did not include adequate
documentation to show compliance with FAR part 10 in the contract file to support
1 of the 30 sole-source determinations, specifically contract W15P7T-10-C-S225.

For contract W15P7T-10-C-S225, ACC-APG contracting personnel did not include
adequate documentation to show compliance with FAR part 10. ACC-APG contracting
personnel included a discussion of the market research conducted in the memorandum for
urgent requirements included in the contract file. In the memorandum for urgent
requirements, the Project Manager for Night Vision/Reconnaissance, Surveillance &
Target Acquisition stated that Government technical experts made numerous calls and
determined that only one contractor can meet the immediate need because the
Government does not own the technical data package for the proprietary commercial
items. The Project Manager for Night Vision/Reconnaissance, Surveillance & Target
Acquisition did not identify the companies or individuals they contacted to determine that
only one contractor could meet the Government’s requirements. In addition, the Project
Manager for Night Vision/Reconnaissance, Surveillance & Target Acquisition did not
include any dates or time frames of when market research was conducted. Further,
ACC-APG contracting personnel did not include any additional information on market
research in the contract file or provide an adequate reason for why they did not include
the market research documentation in the contract file. See Appendix E for additional
information on the market research ACC-APG contracting personnel conducted.

Contracting Personnel Awarded Two Noncompetitive
Contracts Without Proper Justification
ACC-APG contracting personnel did not adequately justify the noncompetitive contract
award for 2 of the 30 noncompetitive contracts. ACC-APG contracting personnel did not
approve the J&A until 462 days after the contract award for one contract because of
funding problems and organizational changes. For the other contract, ACC-APG
contracting personnel did not produce evidence that a J&A was completed or that market
research was adequately documented. In addition, ACC-APG contracting personnel did
not provide an adequate reason for why they did not include the documentation in the
contract file.

Contract W15P7T-10-C-S230
ACC-APG contracting personnel did not approve the J&A for contract
W15P7T-10-C-S230 until 462 days after the contract award because of funding problems
and organizational changes. ACC-APG contracting personnel awarded contract
W15P7T-10-C-S230 on September 29, 2010, with a not to exceed amount of
$51,662,496 for the acquisition of 130 Cerberus-Lite Systems. According to
FAR 6.303-1(d), justifications for contracts awarded under the authority of FAR 6.302-2,
may be prepared and approved within a reasonable time after contract award when
preparation and approval before award would unreasonably delay the acquisitions.

                                            8
ACC-APG contracting personnel awarded contract W15P7T-10-C-S230 using the
authority FAR 6.302-2, so approval of the J&A after contract award is permitted.
However, 462 days is not a reasonable amount of time to have the J&A approved after
                                  contract award as required by FAR 6.303-1(d). The
  However, 462 days is not a
                                  Executive Director, ACC-APG, should issue guidance
  reasonable amount of time
                                  establishing the number of days that a J&A must be
  to have the J&A approved
                                  approved within when a contract is awarded before
    after contract award…
                                  approval of a justification using the authority cited at
FAR 6.302-2, or, if that timeframe will not be met, require the contracting officer to
document in the contract file before the approval deadline the reason(s) for any additional
delay.

The ACC-APG contracting officer explained the J&A was not approved in a reasonable
period of time because the contract was originally for an immediate requirement of
241 systems. The ACC-APG contracting officer explained funding was not available for
all 241 systems. The Deputy Chief of Staff requested a reprogramming of funds that was
approved by Congress in July 2010. However, sufficient funds were reprogrammed to
procure only the 130 systems purchased in this contract action. The ACC-APG
contracting officer revised and resubmitted the J&A for the 130 systems for which
funding was available. As of August 2012, ACC-APG contracting personnel had not
ordered the additional 111 systems under this contract that were mentioned in the original
J&A.

In addition, the ACC-APG contracting officer explained that at the same time, the J&A
was resubmitted for approval, the U.S. Army Communications-Electronics Command
and the U.S. Army Research, Development and Engineering Command merged together
and new leadership assumed responsibility, including the Principal Assistant Responsible
for Contracting, competition advocate, and legal personnel. Therefore, new personnel
reviewed the revised J&A. The ACC-APG contracting officer explained that the
realignment efforts and the fact that the J&A was being carefully reviewed because of the
lack of funds and personnel turnover caused the J&A review process to be delayed even
further.

Contract W15P7T-10-C-S225
ACC-APG contracting personnel were unable to produce evidence that a J&A was
completed or that market research was adequately documented for contract
W15P7T-10-C-S225. ACC-APG contracting personnel awarded contract
W15P7T-10-C-S225 on September 28, 2010, using FAR 6.302-2 in the amount of
$4,052,277 to procure Integrated Base Defense System of Systems Maintenance Kits to
reduce significant loss of life and injury to the warfighter. When asked, ACC-APG
contracting personnel were not able to provide an adequate reason for why they did not
include the documentation in the contract file. ACC-APG contracting personnel awarded
contract W15P7T-10-S225 without including a J&A or adequate market research
documentation in the contract file and did not provide an adequate reason for not
including this documentation. Therefore, ACC-APG contracting personnel did not have
adequate documentation justifying the award of the contract as sole source for which

                                            9
contracting personnel may have been able to award the noncompetitive contract using full
and open competition at a lower price if additional sources were available to meet the
Government’s needs.

ACC-APG contracting personnel did not include a J&A in the file for contract
W15P7T-10-C-S225 or provide an adequate reason for why they did not include a J&A
as part of the contract documentation. FAR 6.303 requires contracting officers to
document the justification of noncompetitive contract actions before beginning
negotiations. Additionally, FAR 6.303 permits the contracting officer to prepare the J&A
and have it approved within a reasonable time after contract award for contracts awarded
under FAR 6.302-2. ACC-APG contracting personnel awarded contract
W15P7T-10-C-S225 under the authority cited at FAR 6.302-2 in September 2010, but, as
of July 2012, did not include documentation of a completed J&A in the contract file.
According to the contracting officer, the J&A should have been documented in the Army
Paperless Contract File system; however, we did not find evidence of a completed J&A
in the Army Paperless Contract File system. The contracting officer also stated that a
contract specialist uploaded the electronic contract documentation to the Army Paperless
Contract File system and the J&A should have been added as part of the electronic
contract documentation. As of July 2012, we made numerous attempts to obtain the J&A
from the contracting officer and the division chief; however, they were unable to provide
a reason for why the J&A was not documented in the contract file.

ACC-APG contracting personnel awarded contract W15P7T-10-C-S225 without
adequately documenting the market research conducted. FAR part 10 states that agencies
should document the results of market research in a manner appropriate to the size and
complexity of the acquisition. The ACC-APG contracting personnel’s description of the
market research conducted included the “Memorandum for US Army Contracting
Command, CECOM Contracting Center, Subject: Urgent Requirement for Base
Expeditionary Targeting and Surveillance Systems – Combined Integrated Base Defense
System of Systems Maintenance Kits in Support of Operation Iraqi Freedom/Operation
New Dawn,” September 22, 2010, signed by the Project Manager for Night Vision/
Reconnaissance, Surveillance, & Target Acquisition stated that Government technical
experts made numerous calls and determined that only one contractor can meet the
Government’s urgent requirements. While the memorandum included a discussion of the
market research conducted, the Project Manager for Night Vision/Reconnaissance,
Surveillance, & Target Acquisition did not identify the companies the Government’s
technical experts contacted to determine that only one contractor could meet the
Government’s requirements. The Executive Director, ACC-APG, should emphasize the
importance of completing a J&A, in accordance with FAR 6.303, and adequately
performing and documenting market research, in accordance with FAR part 10, for all
noncompetitive awards using FAR 6.302. The Executive Director, ACC-APG, should
also review the performance of the contracting officer who awarded noncompetitive
contract W15P7T-10-C-S225 to determine whether administrative action is warranted.




                                           10
Contracting Personnel Did Not Comply With FAR 5.207
for Nine Noncompetitive Contracts
ACC-APG contracting personnel did not follow applicable guidance by not including one
or both of the statements required by FAR 5.207 in the synopsis for 9 of the
30 noncompetitive contracts, possibly excluding sources that may be interested in the
noncompetitive contracts. In addition, ACC-APG contracting personnel used an
exception to not synopsize a contract action that should have been synopsized.
FAR 5.207(c)(14) 6 requires the issuance of synopsis of intended noncompetitive contract
awards to identify the intended source and a statement of the reason justifying the lack of
competition. FAR 5.207(c)(15)(ii) requires the synopsis of noncompetitive contract
actions using FAR 6.302-1 as the authority cited to include a statement that “all
responsible sources may submit a capability statement, proposal, or quotation, which
shall be considered by the agency.” For proposed contract actions made under
FAR 6.302-2 through 6.302-7, FAR 5.207(c)(15)(i), requires the synopsis to include a
statement that “all responsible sources may submit a bid, proposal, or quotation which
shall be considered by the agency.” Because ACC-APG contracting personnel did not
include one or both of the statements required by FAR 5.207 in nine synopses, interested
sources may not have been aware of actions they could have taken to compete for the
awards.

ACC-APG contracting personnel did not include a copy of the synopsis in the contract
file for contract W15P7T-10-C-S228. Instead, they included a memorandum in the
contract file stating the contracting officer need not submit a synopsis in accordance with
FAR 5.202(a)(2). The exception listed at FAR 5.202(a)(2) states that contracting officers
need not submit a synopsis when the proposed contract action is made under the
conditions described in FAR 6.302-2, “Unusual and Compelling Urgency.” However,
ACC-APG contracting personnel awarded contract W15P7T-10-C-S228 under
FAR 6.302-1, which is “Only One Responsible Source and No Other Supplies or
Services Will Satisfy Agency Requirements,” and, therefore, should have synopsized the
contract action. ACC-APG contracting personnel should include the statements required
by FAR 5.207 in the synopsis of contract actions made under FAR 6.302 to ensure that
interested sources are aware of actions they can take if interested in competing for the
contract. The table on page 12 identifies the nine noncompetitive contracts that did not
include the statement or statements required by FAR 5.207(c)(14) and/or (15).




6
  Effective May 31, 2011, the requirements for FAR 5.207(c)(14), FAR 5.207(c)(15)(i), and FAR
5.207(c)(15)(ii) were moved to FAR 5.207(c)(15), FAR 5.207(c)(16)(i), and FAR 5.207(c)(16)(ii),
respectively.

                                                  11
Table. Contracts Not Compliant With FAR 5.207(c)(14) and/or FAR 5.207(c)(15)

                            Synopsis Did Not Include        Synopsis Did Not Include
       Contract            the Statement Required by       the Statement Required by
                                FAR 5.207(c)(14)                FAR 5.207(c)(15)
W911SR-10-C-0031                                                      
W15P7T-09-D-K202                                                      
W911SR-10-C-0043                       
W911SR-09-D-0008                       
W911SR-09-D-0009                                                         
W91CRB-10-D-0029                        
W15P7T-10-D-C007                                                         
W15P7T-09-D-H213                                                         
W15P7T-09-D-H201                                                        

Conclusion
ACC-APG contracting personnel adequately justified contracts as sole source for
28 of the 30 noncompetitive contracts reviewed. ACC-APG contracting personnel
complied with FAR 6.303-2 requirements, appropriately applied the authority cited, and
obtained approval from the proper personnel for the 29 J&As reviewed. ACC-APG
contracting personnel had an approved J&A before awarding 26 noncompetitive contracts
as required by FAR 6.303. Further, ACC-APG contracting personnel generally
documented compliance with FAR part 10. However, ACC-APG contracting personnel
did not include 1 or both of the statements required by FAR 5.207 in the synopsis for
9 of the 30 noncompetitive contracts and used an exception to not synopsize a contract
action that should have been synopsized.

Contracting personnel did not provide adequate justification for the noncompetitive
award of two contracts with an obligated value of about $29 million. ACC-APG
contracting personnel did not approve the J&A until 462 days after contract award for
one contract because of funding problems and organizational changes or did not produce
evidence that a J&A was completed or that market research was adequately documented
for one contract. In addition, ACC-APG contracting personnel did not provide an
adequate reason for why they did not include the documentation in the contract file. As a
result, ACC-APG contracting personnel did not approve the J&A within a reasonable
time after contract award as required by FAR 6.303-1(d). Also, ACC-APG contracting
personnel did not have adequate documentation justifying the award of one contract as
sole source for which contracting personnel may have been able to award the
noncompetitive contract using full and open competition at a lower price if additional
sources were available to meet the Government’s needs.




                                            12
Recommendations, Management Comments, and Our
Response
We recommend that the Executive Director, U.S. Army Contracting Command –
Aberdeen Proving Ground:

   1. Issue guidance establishing the number of days that a Justification and
Approval for other than full and open competition must be approved within when a
contract is awarded before approval of a justification using the authority cited at
Federal Acquisition Regulation 6.302-2, “Unusual and Compelling Urgency” or, if
that timeframe will not be met, require the contracting officer to document in the
contract file before the approval deadline the reason(s) for any additional delay.

U.S. Army Contracting Command – Aberdeen Proving Ground
Comments
The Executive Director, Army Contracting Command-Aberdeen Proving Ground,
responding through the Army Contracting Command-Redstone Arsenal, agreed. He
stated that on February 16, 2012, Army Contracting Command-Aberdeen Proving
Ground issued Acquisition Instruction 12-14. Acquisition Instruction 12-14 states that an
urgent Justification and Approval valued at $85.5 million and below must be approved
within 7 calendar days after contract award and an urgent Justification and Approval
valued above $85.5 million must be submitted to the Deputy Assistant Secretary of the
Army (Procurement) within 7 days after contract award. He stated that the requirement
to file documentation when the completion dates will not be met will be added to the
guidance. He also stated that this guidance will be reissued and highlighted in a
memorandum no later than October 30, 2012. The Director included Acquisition
Instruction 12-14 with his response.

Our Response
The Executive Director’s comments were responsive, and the actions met the intent of the
recommendation. No further comments are required.

   2. Issue a memorandum to contracting officers emphasizing the importance of
completing a Justification and Approval in accordance with Federal Acquisition
Regulation 6.303, “Justifications” and adequately performing and documenting
market research in accordance with Federal Acquisition Regulation Part 10,
“Market Research” for all noncompetitive awards using Federal Acquisition
Regulation 6.302, “Circumstances Permitting Other Than Full and Open
Competition.”

U.S. Army Contracting Command – Aberdeen Proving Ground
Comments
The Executive Director, Army Contracting Command-Aberdeen Proving Ground,
responding through the Army Contracting Command-Redstone Arsenal, agreed. He
stated that a memorandum will be issued no later than October 30, 2012.


                                           13
Our Response
The Executive Director’s comments were responsive, and the actions met the intent of the
recommendation. No further comments are required.

   3. Review the performance of the contracting officer who did not produce
evidence of a Justification and Approval for other than full and open competition or
that market research was adequately documented for noncompetitive contract
W15P7T-10-C-S225 to determine whether administrative action is warranted.

U.S. Army Contracting Command – Aberdeen Proving Ground
Comments
The Executive Director, Army Contracting Command-Aberdeen Proving Ground,
responding through the Army Contracting Command-Redstone Arsenal, agreed. He
stated that the Chief, Division C reviewed the actions of the contracting officer and
counseled the contracting officer on proper file documentation. He stated that the
counseling constitutes the administrative action that will be taken and any documents that
were not properly filed in the Army Paperless Contract Files, but were available
elsewhere, will be uploaded to the Army Paperless Contract Files. The Director included
a memorandum signed by the Chief, Division C, September 7, 2012, documenting the
administrative action taken with his response.

Our Response
The Executive Director’s comments were responsive, and the actions met the intent of the
recommendation. No further comments are required.

    4. Provide contracting personnel training or issue a memorandum on including
the statements required by Federal Acquisition Regulation 5.207, “Preparation and
Transmittal of Synopses,” in the synopsis of contract actions made under Federal
Acquisition Regulation 6.302, “Circumstances Permitting Other Than Full and
Open Competition.”

U.S. Army Contracting Command – Aberdeen Proving Ground
Comments
The Executive Director, Army Contracting Command-Aberdeen Proving Ground,
responding through the Army Contracting Command-Redstone Arsenal, agreed. He
stated that a memorandum will be issued reminding contracting officers of the
requirement to include the statements in Federal Acquisition Regulation 5.207(c)(15) and
(16) no later than October 30, 2012.

Our Response
The Executive Director’s comments were responsive, and the actions met the intent of the
recommendation. No further comments are required.




                                           14
Appendix A. Scope and Methodology
We conducted this performance audit from July 2011 through August 2012 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

Our scope included only noncompetitive contract awards during FYs 2009 and 2010 to
determine whether DoD noncompetitive contract awards were properly and adequately
justified as sole source. We also excluded contracts that were awarded for national
security purposes, foreign military sales, classified contracts, or contracts that were
improperly coded in the FPDS-NG as noncompetitive.

The project was suspended from August 8, 2011, through March 19, 2012. To provide
timely reporting for each location audited, we decided to issue site reports under
individual subprojects from the initial project. In October 2011, we reannounced the
revised audit approach of issuing separate audit reports for each audit site as well as the
revised audit objective to determine whether DoD noncompetitive contract awards were
properly justified as sole source. This report is the sixth in a series of audit reports on
DoD contracts awarded without competition.

Universe and Sample Information
We used the FPDS-NG to identify noncompetitive contract actions issued by the Military
Services and DoD agencies during FYs 2009 and 2010. The queries were limited to
actions issued on contracts that were awarded during FYs 2009 and 2010 and coded as a
“noncompetitive delivery order” or “not competed” in FPDS-NG. The queries also
excluded contract actions that received more than one offer as identified in FPDS-NG.
We then selected the four DoD Components with the highest dollar value of awards,
specifically the Army, Navy, Air Force, and the Defense Logistics Agency, to identify
specific audit locations.

We focused our site selection on three sites for the Department of the Army that awarded
20 or more C and D type noncompetitive contracts * and obligated approximately
$200 million or more during FYs 2009 and 2010. Our site selection excluded sites that
were visited during the recent Government Accountability Office and Army Audit
Agency reviews on noncompetitive contract awards. In addition, we reviewed reports
issued by the DoD Office of Inspector General, Acquisition and Contract Management



*
 Defense Federal Acquisition Regulation Supplement 204.7003, “Basic PII Number,” defines C type
contracts as “[c]ontracts of all types except indefinite delivery contracts, sales contracts, and contracts
placed with or through other Government departments or agencies or against contracts placed by such
departments or agencies outside the DoD” and D type contracts as “[i]ndefinite delivery contracts.”

                                                       15
Directorate, from October 2008 through April 2011 that covered acquisition and
contracting issues and excluded sites that have been visited on numerous occasions.

The initial data obtained from FPDS-NG resulted in a universe of 147 noncompetitive
C and D type contracts for the U.S. Army Communications-Electronics Command and
the U.S. Army Research, Development and Engineering Command, Aberdeen Proving
Ground, Maryland. We requested 37 of the 147 contracts to review during the site visit
to ACC-APG Contracting Center. However, for the 37 contracts requested, we did not
review contracts awarded for national security purposes, foreign military sales, classified
contracts, or contracts that were improperly coded in the FPDS-NG as noncompetitive.
In addition, we did not review contracts that were not truly noncompetitive, such as
contracts that were competitive one bids or those contracts set aside to develop small
businesses.

Two contracts were excluded from our sample because they were awarded under
FAR Subpart 13.5, “Test Program for Certain Commercial Items,” and two contracts
were awarded for foreign military sales. One contract was excluded because it was
transferred to the Defense Logistics Agency Troop Support and the contract
documentation was not available for review. One contract file was excluded from our
sample because it was located at another installation in Orlando, Florida, and was not
available for review. In addition, one contract was excluded from our sample because it
was awarded under FAR Subpart 8.6, “Acquisition from Federal Prison Industries, Inc.”
Based on these exclusions, we reviewed 30 of the 37 contracts requested. See
Appendix C for additional details on the noncompetitive contracts we reviewed.

Review of Documentation and Interviews
We evaluated documentation against applicable criteria including:

   •   FAR Part 5, “Publicizing Contract Actions”;
   •   FAR Subpart 6.3, “Other Than Full and Open Competition”;
   •   FAR Part 10, “Market Research”;
   •   Defense Federal Acquisition Regulation Supplement 204.7003, “Basic PII
       number”;
   •   Army Federal Acquisition Regulation Supplement Part 5110, “Market Research”;
       and
   •   Army Federal Acquisition Regulation Supplement 5106.304, “Approval of the
       Justification.”

We interviewed contracting personnel at ACC-APG Contracting Center to discuss
noncompetitive contract awards and to obtain information regarding the noncompetitive
contract files identified in our sample, specifically about the J&A and market research.
We reviewed contracts with award dates ranging from December 15, 2008, through
September 29, 2010. We also interviewed the competition advocates at ACC-APG
Contracting Center to gain an understanding of the competition advocates’



                                            16
responsibilities and role in noncompetitive contract awards. In addition, we obtained
some of the contract documentation from the Army Paperless Contract Files at
https://pcf.army.mil/.

Use of Computer-Processed Data
We relied on computer-processed data from the FPDS-NG to establish the initial universe
for this audit by identifying noncompetitive contract actions issued by the Services and
DoD agencies. We also used the data from the FPDS-NG to help determine the
contracting organizations to visit and to perform the nonstatistical sample selection.
We used the Electronic Document Access database to obtain contract documentation,
such as the contract and modifications to the contract before our site visit to the
ACC-APG Contracting Center. To assess the accuracy and appropriateness of the
computer-processed data, we verified the FPDS-NG and Electronic Document Access
data against official records at the contracting activity. We determined that data obtained
through the FPDS-NG and the Electronic Document Access databases were sufficiently
reliable to accomplish our audit objective when compared with contract records.
We used the FPDS-NG only to identify the universe, to help determine the contracting
organizations to visit, and to identify our nonstatistical sample. In addition, we used the
Army Paperless Contract Files to obtain electronic contract files, such as the J&A and
market research documentation. The Army Paperless Contract Files is a complete
document, storage and workflow solution where Acquisition Professionals store, edit,
send for review and approval, and archive the contract files they work with every day.
We obtained files that were not available from the Army Paperless Contract Files from
ACC-APG contracting personnel. The reliability of the Army Paperless Contract Files
had no direct effect on our findings or conclusions.

Use of Technical Assistance
We held discussions with personnel from the DoD Office of Inspector General’s
Quantitative Methods Division. We determined that we would use FPDS-NG data to
select a nonstatistical sample of contracting activities and then use FPDS-NG data to
select a nonstatistical sample of noncompetitive contracts to review. During our site
visit, we worked with ACC-APG contracting personnel to verify that the selected
contracts met the scope limitations of our review and to identify additional contracts that
did not meet the selection criteria. Our nonstatistical sample was limited to specific
contracts, and our results should not be projected across other ACC-APG Contracting
Center-issued or Army-issued contracts.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), Department of
Defense Inspector General (DoD IG), and the Army Audit Agency issued eight reports
discussing noncompetitive contract awards. Unrestricted DoD IG reports can be accessed
over the Internet at http://www.dodig.mil. Unrestricted GAO reports can be accessed
over the Internet at http://www.gao.gov. Unrestricted Army Audit Agency reports can be
accessed from .mil and .gov domains over the Internet at https://www.aaa.army.mil/.


                                            17
GAO
GAO Report No. GAO-12-263, “Improved Policies and Tools Could Help Increase
Competition on DOD’s National Security Exception Procurements,” January 13, 2012

GAO Report No. GAO-10-833, “Opportunities Exist to Increase Competition and Assess
Reasons When Only One Offer Is Received,” July 26, 2010

DoD IG
DoD IG Report No. DODIG-2012-084, “Air Force Aeronautical Systems Center
Contracts Awarded Without Competition Were Properly Justified,” May 10, 2012

DoD IG Report No. DODIG-2012-077, “Naval Surface Warfare Center Crane Contracts
Awarded Without Competition Were Properly Justified,” April 24, 2012

DoD IG Report No. DODIG-2012-076, “Army Contracting Command – Rock Island
Contracts Awarded Without Competition Were Properly Justified,” April 19, 2012

DoD IG Report No. DODIG-2012-073, “Natick Contracting Division’s Management of
Noncompetitive Awards Was Generally Justified,” April 10, 2012

DoD IG Report No. DODIG-2012-042, “Naval Air Systems Command Lakehurst
Contracts Awarded Without Competition Were Properly Justified,” January 20, 2012

Army
Army Audit Agency Report No. A-2011-0002-ALC, “Extent of Competition in Army
Contracting,” October 12, 2010




                                         18
Appendix B. Federal Acquisition Regulation
Criteria
Federal Acquisition Regulation Subpart 6.3, “Other Than
Full and Open Competition”
Federal Acquisition Regulation (FAR) subpart 6.3 prescribes the policies and
requirements for contracting without full and open competition. Contracting without full
and open competition is a violation of statue such as Section 2304, title 10, United States
Code, unless permitted by an exception provided in FAR 6.302, “Circumstances
Permitting Other Than Full and Open Competition.” FAR 6.302 lists seven exceptions
for contracting without full and open competition:

   •   FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services
       Will Satisfy Agency Requirements”;
   •   FAR 6.302-2, “Unusual and Compelling Urgency”;
   •   FAR 6.302-3, “Industrial Mobilization; Engineering, Developmental, or Research
       Capability; or Expert Services”;
   •   FAR 6.302-4, “International Agreement”;
   •   FAR 6.302-5, “Authorized or Required by Statute”;
   •   FAR 6.302-6, “National Security”; and
   •   FAR 6.302-7, “Public Interest.”

A contracting officer must not begin negotiations for or award a noncompetitive contract
without providing full and open competition unless the contracting officer justifies the
use of such action in writing, certifies the accuracy and completeness of the justification,
and obtains approval of the justification. FAR 6.303-2, “Content,” requires each
justification to contain sufficient facts and rationale to justify the use of the authority
cited. At a minimum, each justification must contain the following.

   •   The name of the agency and contracting activity and identification of the
       document as a “Justification for other than full and open competition.”
   •   A description of the action being approved.
   •   A description of the supplies or services required to meet the agency’s needs
       including the estimated value.
   •   The statutory authority permitting other than full and open competition.
   •   A demonstration that the contractor’s unique qualifications or the nature of the
       acquisition requires the use of the authority cited.
   •   A description of the efforts made to ensure offers are submitted from as many
       sources as practicable.
   •   The contracting officer’s determination that the cost to the Government will be
       fair and reasonable.



                                             19
    •   A description and the results of the market research conducted or, if market
        research was not conducted, a reason it was not conducted.
    •   Any other facts supporting the use of other than full and open competition.
    •   A listing or sources that expressed written interest in the acquisition.
    •   A statement of the actions the agency may take to overcome any barriers to
        competition before a subsequent acquisition.
    •   The contracting officer’s certification that the justification is accurate and
        complete to the best of his or her knowledge and belief.

FAR 6.304, “Approval of the Justification,” identifies the person responsible for
approving the J&A based on the value of the proposed contract. * The contracting officer
approves the J&A for a proposed contract not exceeding $550,000. The competition
advocate approves the J&A for a proposed contract of more than $550,000 but not
exceeding $11.5 million. The head of the procuring activity, a general or flag officer if a
member of the military, or a civilian in a position above GS-15 under the general
schedule approves the J&A for a proposed contract more than $11.5 million but not
exceeding $78.5 million. The senior procurement executive of the agency approves the
J&A for a proposed contract over $78.5 million.

FAR Subpart 5.2, “Synopses of Proposed Contract Actions”
FAR 5.201, “General,” requires agencies to provide a synopsis of proposed contract
actions for the acquisition of supplies and services. The contracting officer must submit
the synopsis to the Governmentwide Point of Entry that can be accessed on the Internet at
https://www.fedbizopps.gov. FAR 5.203, “Publicizing and Response Time,” requires the
synopsis to be published for at least 15 days before the issuance of a solicitation or
proposed contract action; however, the contracting officer may establish a shorter period
of time for commercial items. Each synopsis submitted to the Governmentwide Point of
Entry must include certain data elements as applicable, such as the date of the synopsis,
the closing response date, a proposed solicitation number, a description, and the point of
contact or contracting officer. In addition, FAR 5.202, “Exceptions,” lists circumstances
when the contracting officer does not need to submit a synopsis. Examples of instances
when the contracting officer does not need to submit a synopsis include the following.

    •   The proposed contract action is made under FAR 6.302-2, and the Government
        would be seriously injured if the agency complied with time periods specified by
        FAR 5.203.
    •   The proposed contract action is made under FAR 6.302-3 or FAR 6.302-5 with
        regard to brand name commercial items authorized for resale.
    •   The proposed contract action is made under FAR 6.302-3 with regard to the
        services of an expert to support the Government in a litigation or dispute.



*
 On October 1, 2010, the approval thresholds increased. Our review was limited to noncompetitive
contract awards during FYs 2009 and 2010; therefore, we used the approval thresholds in place during
FYs 2009 and 2010.

                                                   20
Contracting officers are required by FAR 5.207, “Preparation and Transmittal of
Synopses,” to include statements in the synopses of noncompetitive contract actions
stating their intent to award a noncompetitive contract and notifying interested sources of
actions they can take if interested in the noncompetitive contract. FAR 5.207(c)(14)
requires the synopsis of noncompetitive contract actions to identify the intended source
and a statement of the reason justifying the lack of competition. FAR 5.207(c)(15)(ii)
requires the synopsis of noncompetitive contract actions using FAR 6.302-1 as the
authority cited to include a statement that all responsible sources may submit a capability
statement, proposal, or quotation, which will be considered by the agency. For other
proposed contract actions made under FAR 6.302, FAR 5.207(c)(15)(i) requires the
synopsis to include a statement that all responsible sources may submit a bid, proposal, or
quotation, which shall be considered by the agency.

FAR Part 10, “Market Research”
FAR part 10 prescribes policies and requirements for conducting market research to
arrive at the most suitable approach for acquiring, distributing, and supporting supplies
and services. Agencies are required to conduct market research appropriate to the
circumstance before soliciting offers for acquisitions with an estimated value over the
simplified acquisition threshold. Agencies are required to use the results of market
research to determine if there are appropriate sources or commercial items capable of
satisfying the agency’s requirements. The extent of market research the agencies
conducts varies depending on factors such as urgency, estimated dollar value,
complexity, and past experience. The contracting officer may use market research
conducted within 18 months before the award of any task or delivery order if the
information is still current, accurate, and relevant. Agencies use market research
techniques, such as contacting knowledgeable individuals in Government and industry,
reviewing results of recent market research, publishing formal requests for information,
querying database, participating in on-line communication, obtaining source lists of
similar items, and reviewing available product literature. Agencies should document the
results of market research in a manner appropriate to the size and complexity of the
acquisition.




                                            21
           Appendix C. Noncompetitive Contracts Reviewed
           Noncompetitive Contracts Awarded by ACC-APG Contracting Center From FY 2009 Through FY 2010
                                    Product
                                                                                                                 Contract                      Contract
         Contract Number              or                        Description                     Award Date                  Authority Cited
                                                                                                                  Type                          Value1
                                    Service
                                                 Modification and component fabrication
  1      W911SR-10-C-0037            Service         of eight joint nuclear biological,              5/27/2010     FFP        FAR 6.302-2      $360,731
                                                     chemical reconnaissance system
                                                   Professional mentoring and training
  2      W91CRB-10-C-0100            Service                                                         4/29/2010    CPFF        FAR 6.302-2     32,241,459
                                                             support services
                                                  Research and development of chemical
  3      W911SR-10-C-0031            Service                                                         4/22/2010    CPFF        FAR 6.302-1      1,470,000
                                                 biological decontamination formulations
                                                 Spare parts for the air traffic navigation                       FFP &
  4      W15P7T-10-D-F201            Product                                                         9/24/2010                FAR 6.302-1     49,500,000
                                                                   system                                          IDIQ
                                                                                                                  FFP &
  5      W15P7T-09-D-K202            Service      Evaluation and repair of Klystron Tubes            3/26/2009                FAR 6.302-1      8,000,000
                                                                                                                   IDIQ
                                                    Evaluation, repair, and engineering                          IDIQ &
  6      W15P7T-09-D-B402            Service                                                         6/25/2009                FAR 6.302-1     45,000,000
                                                                  services                                        T&M
                                                  Plan, design, test, implementation, and
                                                  maintenance of the defense prisoner of                          FFP &
  7      W15P7T-10-C-A856            Service                                                         9/29/2010                FAR 6.302-2       499,013
                                                 war/missing personnel office geo-spatial                          Cost
                                                            information system
  8      W15P7T-10-C-F008            Product                  Battery adapters                       6/23/2010     FFP        FAR 6.302-2       365,224
Acronyms and footnotes used throughout the Appendix C are defined on the final page of Appendix C.




                                                                                       22
           Appendix C. Noncompetitive Contracts Reviewed (cont’d)
           Noncompetitive Contracts Awarded by ACC-APG Contracting Center From FY 2009 Through FY 2010
                                    Product
                                                                                                                 Contract
         Contract Number              or                        Description                     Award Date                  Authority Cited   Contract Value
                                                                                                                  Type
                                    Service
                                                       Support services for on-going
  9      W911SR-10-C-0043            Service         engineering, technical, analytical,             6/29/2010    CPFF        FAR 6.302-1       8,398,998
                                                    training, and program management
 10      W91CRB-09-C-0110            Service         Logistics and engineering support               9/25/2009    CPFF        FAR 6.302-1      19,419,170
                                                   Manufacturing and delivery of M-53
                                                                                                                 IDIQ &
 11      W911SR-09-D-0008            Product       chemical biological protective mask               7/09/2009                FAR 6.302-1      4,958,5322
                                                                                                                   FFP
                                                                 systems
                                                      Web Puff information system                                 IDIQ,
 12      W911SR-09-D-0009            Service     improvements and contractor manpower                9/25/2009   CPFF, &      FAR 6.302-1      22,500,000
                                                                reporting                                          FFP
 13      W15P7T-09-C-A011            Product           Four electric power plant IIIs                9/16/2009     FFP        FAR 6.302-1       4,154,092
                                                     Software support and engineering
 14      W15P7T-09-C-C303            Service        services for the distributed common              9/29/2009    CPFF        FAR 6.302-3       6,310,947
                                                            ground system-army
 15      W911SR-09-C-0028            Product             High pressure compressor                    4/02/2009     FFP        FAR 6.302-2        290,540
                                                        Boomerang III systems with
                                                      boomguards and Mine Resistant
 16      W15P7T-09-C-M410            Product                                                         8/10/2009     FFP        FAR 6.302-1      22,460,000
                                                            Ambush Protected
                                                          vehicle integration kits
Acronyms and footnotes used throughout the Appendix C are defined on the final page of Appendix C.




                                                                                        23
           Appendix C. Noncompetitive Contracts Reviewed (cont’d)
           Noncompetitive Contracts Awarded by ACC-APG Contracting Center From FY 2009 Through FY 2010
                                    Product
                                                                                                                 Contract
         Contract Number              or                        Description                     Award Date                  Authority Cited   Contract Value
                                                                                                                  Type
                                    Service
                                                    Land warrior systems and support                              FFP &
  17     W91CRB-10-C-0028            Product                                                     12/23/2009                   FAR 6.302-1      27,938,064
                                                               equipment                                          CPFF
                                                    Non-personal services necessary to                            FFP &
  18     W91CRB-10-C-0111            Service                                                         5/28/2010                FAR 6.302-2       7,575,110
                                                          perform field service                                   CPFF
  19     W15P7T-09-C-C014            Product            Environmental control units                  9/30/2009     FFP        FAR 6.302-2       2,650,572
                                                  Engineering, technical and management
  20     W15P7T-09-C-F402            Service         support services for the JASON                  8/06/2009    CPFF        FAR 6.302-3       3,946,384
                                                                 program
  21     W15P7T-09-C-N201            Product           655 quick erect antenna mast              12/18/2008        FFP        FAR 6.302-2       2,063,250
  22     W91CRB-09-C-0065            Product             Ground penetrating radars                   3/19/2009     FFP        FAR 6.302-1        867,600
                                                                                                                  FFP &
  23     W91CRB-10-D-0029            Service        Testing of high performance fibers               9/15/2010                FAR 6.302-1       1,500,000
                                                                                                                   IDIQ
  24     W15P7T-10-C-S230            Product             130 Cerberus lite systems                   9/29/2010     FFP        FAR 6.302-2      51,662,496
                                                    Operational test and evaluation for
                                                                                                                  FFP &
  25     W15P7T-10-D-C007            Service        Warfighter Information Network-                  3/24/2010                FAR 6.302-1     338,010,919
                                                                                                                   FPIF
                                                                 Tactical
                                                  U.S. Army tactical fuel accounting and
  26     W15P7T-10-C-S228            Service                                                         9/27/2010     FFP        FAR 6.302-1       2,861,500
                                                  inventory data utilizing DoD software.
Acronyms and footnotes used throughout the Appendix C are defined on the final page of Appendix C.




                                                                                       24
          Appendix C. Noncompetitive Contracts Reviewed (cont’d)
          Noncompetitive Contracts Awarded by ACC-APG Contracting Center From FY 2009 Through FY 2010
                                   Product
                                                                                                                   Contract
         Contract Number             or                         Description                      Award Date                   Authority Cited   Contract Value
                                                                                                                    Type
                                   Service
                                                  Support the modernization program in
                                                  the areas of satellite communications,                            FFP,
    27   W15P7T-09-D-H213           Service         command and control information                   12/15/2008   T&M, &       FAR 6.302-1      74,600,000
                                                  systems and technical assessments of                              IDIQ
                                                                 programs.
                                                   Engineering, technical and program
                                                                                                                    FFP,
                                                   management support services for the
    28   W15P7T-09-D-H201           Service                                                           5/29/2009    T&M, &       FAR 6.302-1      74,764,813
                                                   Defense communications and Army
                                                                                                                    IDIQ
                                                          transmission systems.
                                                 Technical and software support services                            FFP,
    29   W15P7T-10-D-S003           Service       and spare parts for the meteorological              3/30/2010    T&M, &       FAR 6.302-1       5,000,000
                                                              measuring set.                                        IDIQ
                                                   Integrated Base Defense System of
    30   W15P7T-10-C-S225           Product                                                           9/28/2010      FFP        FAR 6.302-2       4,052,277
                                                        Systems Maintenance Kits.
1
The contract value is the base award value excluding options or the maximum ceiling price at award.
2
The contract value is the amount ordered on the contract since July 19, 2010.

Cost               Cost Reimbursement
CPFF               Cost-Plus-Fixed-Fee
FAR 6.302-1        Only One Responsible Source and No Other Supplies or Services Will Satisfy Agency Requirements
FAR 6.302-2        Unusual and Compelling Urgency
FAR 6.302-3        Industrial mobilization; engineering, developmental, or research capability; or expert services
FFP                Firm-Fixed-Price
FPIF               Fixed-Price-Incentive-Fee
IDIQ               Indefinite-Delivery, Indefinite-Quantity
T&M                Time-and-Material




                                                                                        25
     Appendix D. Adequate Justification and Approvals
     Noncompetitive Contracts Awarded by ACC-APG Contracting Center From FY 2009 Through FY 2010
                                                                    Justification & Approval   Justification & Approval
                         Content Requirements    Authority Cited
      Contract Number                                                 Approved by Proper           Approved Before
                                 Met            Appropriately Met
                                                                            Personnel              Contract Award
1     W911SR-10-C-0037            √                      √                     √                          √

2    W91CRB-10-C-0100             √                      √                     √                          √

3     W911SR-10-C-0031            √                      √                     √                          √

4     W15P7T-10-D-F201            √                      √                     √                          √

5     W15P7T-09-D-K202            √                      √                     √                          √

6     W15P7T-09-D-B402            √                      √                     √                          √

7     W15P7T-10-C-A856            √                      √                     √                          √

8     W15P7T-10-C-F008            √                      √                     √                          √

9     W911SR-10-C-0043            √                      √                     √                          √

10   W91CRB-09-C-0110             √                      √                     √                          √

11    W911SR-09-D-0008            √                      √                     √                          √

12    W911SR-09-D-0009            √                      √                     √                          √

13    W15P7T-09-C-A011            √                      √                     √                          √




                                                    26
     Appendix D. Adequate Justification and Approvals (cont’d)
     Noncompetitive Contracts Awarded by ACC-APG Contracting Center From FY 2009 Through FY 2010
                                                                   Justification & Approval   Justification & Approval
                        Content Requirements    Authority Cited
     Contract Number                                                 Approved by Proper           Approved Before
                                Met            Appropriately Met
                                                                           Personnel              Contract Award
14   W15P7T-09-C-C303            √                       √                    √                          √

15   W911SR-09-C-0028            √                       √                    √                          √

16   W15P7T-09-C-M410            √                       √                    √                          √

17   W91CRB-10-C-0028            √                       √                    √                          √

18   W91CRB-10-C-0111            √                       √                    √                          √

19   W15P7T-09-C-C014            √                       √                    √

20   W15P7T-09-C-F402            √                       √                    √                          √

21   W15P7T-09-C-N201            √                       √                    √

22   W91CRB-09-C-0065            √                       √                    √                          √

23   W91CRB-10-D-0029            √                       √                    √                          √

24   W15P7T-10-C-S230            √                       √                    √

25   W15P7T-10-D-C007            √                       √                    √                          √

26   W15P7T-10-C-S228            √                       √                    √                          √

27   W15P7T-09-D-H213            √                       √                    √                          √




                                                    27
          Appendix D. Adequate Justification and Approvals (cont’d)
          Noncompetitive Contracts Awarded by ACC-APG Contracting Center From FY 2009 Through FY 2010
                                                                                              Justification & Approval   Justification & Approval
                                       Content Requirements                Authority Cited
          Contract Number                                                                       Approved by Proper           Approved Before
                                               Met                        Appropriately Met
                                                                                                      Personnel              Contract Award
 28       W15P7T-09-D-H201                         √                                   √                 √                          √

 29       W15P7T-10-D-S003                         √                                   √                 √                          √

 30       W15P7T-10-C-S225*
*ACC-APG contracting personnel did not provide a J&A for contract W15P7T-10-C-S225.




                                                                                  28
           Appendix E. Market Research Conducted
           Noncompetitive Contracts Awarded by ACC-APG Contracting Center From FY 2009 Through FY 2010
                                     Estimated                                                       Results of Market                             Market Research
                                                                                                 Research or Justification      Supporting
          Contract Number           Value on the          Specific Steps Performed                                                                   Considered
                                                                                                    for Not Conducting         Documentation
                                       J&A                                                           Market Research                                  Adequate
                                                                                                 No other company has the
                                                             Market research was not               technical data package
   1      W911SR-10-C-0037             $413,240                                                                                      J&A                Yes1
                                                                  conducted.                        necessary to begin or
                                                                                                     complete the work.
                                                                                                     No other potential
                                                             Market research was not            contractor could provide the
   2     W91CRB-10-C-0100            $34,000,000                                                                                     J&A                Yes1
                                                                  conducted.                     services needed without a
                                                                                                      lapse in support.
                                                           Conducted a literature search
                                                                                                The selection of any other
                                                          through the Defense Technical
                                                                                                 source would delay the
                                                             Information center library.
   3      W911SR-10-C-0031            $1,470,000                                                  outcome by at least 8              J&A                 Yes
                                                         Additionally, a synopsis of this
                                                                                                months and would result in
                                                           requirement was published in
                                                                                                    additional costs.
                                                                    FedBizOpps.
                                                        A Sources Sought Announcement
                                                          was posted on FedBizOpps. In
                                                          addition, monitored equipment              Only the contractor can
                                                                                                                                J&A and market
   4     W15P7T-10-D-F201            $49,500,000           industrial base and conducted             meet the Government’s                               Yes
                                                                                                                               research document
                                                           weekly meetings with various                   requirement.
                                                         industrial sources to discuss the
                                                                 latest technologies.
Acronyms and footnotes used throughout the Appendix E are defined on the final page of Appendix E.




                                                                                       29
           Appendix E. Market Research Conducted (cont’d)
           Noncompetitive Contracts Awarded by ACC-APG Contracting Center From FY 2009 Through FY 2010
                                     Estimated                                                      Results of Market                            Market Research
                                                                                                 Research or Justification      Supporting
          Contract Number           Value on the          Specific Steps Performed                                                                 Considered
                                                                                                   for Not Conducting          Documentation
                                       J&A                                                          Market Research                                 Adequate
                                                       A Sources Sought Announcement
                                                                                                                               Market research
                                                        was published on FedBizOpps, to              Only the contractor can
   5     W15P7T-09-D-K202             $8,000,000                                                                               document and            Yes
                                                          determine if any other sources             meet the requirements.
                                                                                                                                   J&A
                                                            could provide the services.
                                                            Published a Sources Sought
                                                                                                 The contractor is the only
                                                       Announcement and reviewed trade                                         Market research
                                                                                                 source that can meet the
   6     W15P7T-09-D-B402            $35,000,000          journals, periodicals, company                                       document and            Yes
                                                                                                      Government’s
                                                             catalogs, the internet, and                                           J&A
                                                                                                      requirements.
                                                                 Government files.
                                                            Researched the U.S. Army
                                                         Computer Hardware Enterprise           The contractor has existing
                                                       Software and Solutions website for        resources to complete the
   7     W15P7T-10-C-A856              $495,000                                                                                     J&A                Yes
                                                       potential sources and attendance at      urgent and mission specific
                                                        numerous technical symposiums                  requirements.
                                                                  and conferences.
                                                       Market research was conducted via        The only known source for
                                                                                                                                 Statement of
   8      W15P7T-10-C-F008             $403,804          telephone, technical pamphlets,            the urgently required                              Yes
                                                                                                                               Urgency and J&A
                                                                and industry events.              adapter is the contractor.
                                                                                                The contractor was the only
                                                        Performed market research on an
                                                                                                 source that could meet the    Market research
   9      W911SR-10-C-0043           $12,000,000        on-going basis including internet                                                              Yes
                                                                                                 short term requirement in     report and J&A
                                                       searches as well as spend analysis.
                                                                                                   the timeframe required.
Acronyms and footnotes used throughout the Appendix E are defined on the final page of Appendix E.




                                                                                       30
           Appendix E. Market Research Conducted (cont’d)
           Noncompetitive Contracts Awarded by ACC-APG Contracting Center From FY 2009 Through FY 2010
                                     Estimated                                                      Results of Market                         Market Research
                                                                                                 Research or Justification     Supporting
          Contract Number           Value on the          Specific Steps Performed                                                              Considered
                                                                                                   for Not Conducting         Documentation
                                       J&A                                                          Market Research                              Adequate
                                                       Attended industry symposiums and
                                                          met with industry sources. All
                                                                                                 Based on the review of 12
                                                         potential Commercial Off-The-
                                                                                                Foreign and 2 U.S. systems,
                                                        Shelf/Government Off-The-Shelf
  10     W91CRB-09-C-0110            $48,400,000                                                 no other system can meet         J&A               Yes
                                                        solutions were reviewed to verify
                                                                                                     the Government’s
                                                         current availability, Information
                                                                                                        requirement.
                                                       Assurance Compliance, capability,
                                                              and radio compatibility.
                                                        The acquisition team continually
                                                             reviews the international
                                                                                                The market research did not
                                                       commercial market by conducting
                                                                                                  identify a product that
                                                         internet searches, attendance at
  11     W911SR-09-D-0008            $43,685,361                                                 meets the requirements of        J&A               Yes
                                                              international symposia,
                                                                                                     the performance
                                                          conferences, and information
                                                                                                      specifications.
                                                       exchange with foreign government
                                                                     personnel.
                                                          Multiple sources sought were
                                                           issued to identify if any new
                                                         interest or capabilities had been      The contractor was the only
  12     W911SR-09-D-0009            $22,500,000         created, attended conferences to        one capable of providing         J&A               Yes
                                                       provide exposure to commercially                the services.
                                                           available software, and also
                                                         investigated alternative models.
Acronyms and footnotes used throughout the Appendix E are defined on the final page of Appendix E.



                                                                                       31
           Appendix E. Market Research Conducted (cont’d)
           Noncompetitive Contracts Awarded by ACC-APG Contracting Center From FY 2009 Through FY 2010
                                     Estimated                                                          Results of Market                          Market Research
                                                                                                     Research or Justification    Supporting
          Contract Number           Value on the           Specific Steps Performed                                                                  Considered
                                                                                                       for Not Conducting        Documentation
                                       J&A                                                              Market Research                               Adequate
                                                            Published a Sources Sought
                                                       Announcement on the FedBizOpps                 Only the contractor can    Market research
  13     W15P7T-09-C-A011             $4,500,000       page seeking potential sources who             meet the Government’s      document and            Yes
                                                           could meet the Government's                     requirement.              J&A
                                                                    requirement.
                                                           Reviewed information on the
                                                                                                      Only the contractor can    Market research
                                                        World-Wide-Web, trade journals,
  14     W15P7T-09-C-C303             $6,000,000                                                      meet the Government’s      document and            Yes
                                                       procurement history, and available
                                                                                                          requirements.              J&A
                                                             technical documentation.
                                                        Research through the Internet and         No other company could
                                                        telephonic inquiries to locate any       provide the 3-stage portable
  15      W911SR-09-C-0028             $290,540                                                                                       J&A                Yes
                                                             additional sources for the            air-cooled high pressure
                                                                   compressors.                          compressor.
                                                       A request for information detailing
                                                             short-term and long-term
                                                          requirements was sent to eight             Only the contractor could   Market research
  16     W15P7T-09-C-M410            $22,500,000            sources that had previously               meet the Government’s      document and            Yes
                                                         expressed interest in providing              short-term requirement.        J&A
                                                          Acoustic Gunshot Detection
                                                                   Systems.
Acronyms and footnotes used throughout the Appendix E are defined on the final page of Appendix E.




                                                                                       32
           Appendix E. Market Research Conducted (cont’d)
           Noncompetitive Contracts Awarded by ACC-APG Contracting Center From FY 2009 Through FY 2010
                                     Estimated                                                      Results of Market                             Market Research
                                                                                                 Research or Justification       Supporting
         Contract Number            Value on the           Specific Steps Performed                                                                 Considered
                                                                                                   for Not Conducting           Documentation
                                       J&A                                                          Market Research                                  Adequate
                                                          Conducted an ongoing market
                                                                                                No commercial off-the-shelf
                                                            research program to obtain
                                                                                                  or Government off-the-
                                                             information on changes,
  17     W91CRB-10-C-0028            $78,150,000                                                shelf solutions systems can          J&A                Yes
                                                              advances, and trends in
                                                                                                  meet the Government’s
                                                         technology. In addition attended
                                                                                                       requirements.
                                                          various industry days in 2008.
                                                                                                   No other sources were        Market research
                                                             Market research was not
  18     W91CRB-10-C-0111            $15,159,478                                                capable of meeting the strict   document and           Yes1
                                                                  conducted.
                                                                                                     time requirement.              J&A
                                                          Read trade journals, reviewed
                                                        product information on the World         Only the contractor could
  19     W15P7T-09-C-C014             $2,650,000         Wide Web, and held discussions           meet the Government’s              J&A                Yes
                                                               with various industry               urgent requirements.
                                                                  representatives.
                                                         Analyzed commercial vendors
                                                          that could potentially meet the
                                                                                                                                Market research
                                                         Government's requirements and           Only the contractor could
  20     W15P7T-09-C-F402            $30,000,000                                                                                 summary and            Yes
                                                            review of on-line literature          meet the requirements.
                                                                                                                                    J&A
                                                           published by manufacturers,
                                                             distributors, and dealers.
Acronyms and footnotes used throughout the Appendix E are defined on the final page of Appendix E.




                                                                                       33
           Appendix E. Market Research Conducted (cont’d)
           Noncompetitive Contracts Awarded by ACC-APG Contracting Center From FY 2009 Through FY 2010
                                     Estimated                                                      Results of Market                             Market Research
                                                                                                 Research or Justification       Supporting
          Contract Number           Value on the           Specific Steps Performed                                                                 Considered
                                                                                                   for Not Conducting           Documentation
                                       J&A                                                          Market Research                                  Adequate
                                                          Contacted two potential sources        Only the contractor could      Market research
  21     W15P7T-09-C-N201             $1,140,300         that had previously produced the           meet the delivery           document and            Yes
                                                            Quick Erect Antenna Mast.                  requirements.                J&A
                                                          Mined information from online
                                                             web sources, searching the           Only the contractor was
                                                                                                                                Market research
                                                               worldwide technology              identified as being able to
  22     W91CRB-09-C-0065             $7,997,500                                                                                document and            Yes
                                                             marketplace to identity all           satisfy all four of the
                                                                                                                                    J&A
                                                            companies that have ground               required criteria.
                                                           penetrating radars experience.
                                                          Meetings with the Army’s body
                                                          armor and protective equipment
                                                          technical expert who has hosted         The contractor is the only
                                                         or attended over 232 meetings on        source that has the required
  23     W91CRB-10-D-0029             $1,500,000                                                                                     J&A                Yes
                                                         a regular basis to share the latest    technology that can meet the
                                                          designs, new technologies, new            Government’s needs.
                                                             materials, and new testing
                                                                  methodologies.
                                                           A request for information was
                                                           posted on FedBizOpps and the          The contractor is the only
                                                         Night Vision Electronic Sensors         source capable of meeting      Market research
  24      W15P7T-10-C-S230           $51,700,000           Directorate constantly surveys           the urgent schedule         document and            Yes
                                                            members of industry through                requirement.                 J&A
                                                              trade shows or informal
                                                                   conversations.
Acronyms and footnotes used throughout the Appendix E are defined on the final page of Appendix E.



                                                                                       34
           Appendix E. Market Research Conducted (cont’d)
           Noncompetitive Contracts Awarded by ACC-APG Contracting Center From FY 2009 Through FY 2010
                                      Estimated                                                         Results of Market                           Market Research
                                                                                                     Research or Justification     Supporting
          Contract Number            Value on the           Specific Steps Performed                                                                  Considered
                                                                                                       for Not Conducting         Documentation
                                        J&A                                                             Market Research                                Adequate
                                                             Review internet and trade
                                                                                                 Only the contractor can meet
                                                          journals, attended various trade
  25     W15P7T-10-D-C007           $2,840,000,000                                                    the Government’s                 J&A                Yes
                                                         shows, and discussions with other
                                                                                                         requirement.
                                                                 technical experts.
                                                                                                      No other source was
                                                                                                  identified. The software is
                                                         A Sources Sought Announcement                                            Market research
                                                                                                 proprietary to the contractor,
  26      W15P7T-10-C-S228                                was posted on the FedBizOpps                                            document and            Yes
                                       $7,700,000                                                  only this contractor could
                                                                    Web site.                                                         J&A
                                                                                                  provide a license to use its
                                                                                                           software.
                                                         A Sources Sought Announcement            Only this contractor could      Market research
  27     W15P7T-09-D-H213             $74,600,000         was posted on the FedBizOpps              meet the Government’s         document and            Yes
                                                                    Web site.                            requirements.                J&A
                                                                                                  This contractor is the only
                                                            Contacted five federal supply                                         Market research
                                                                                                  source that can provide the
  28     W15P7T-09-D-H201             $74,700,000           schedule sources that provide                                         document and            Yes
                                                                                                  unique knowledge required
                                                           these types of support services                                            J&A
                                                                                                   to meet the requirements.
Acronyms and footnotes used throughout the Appendix E are defined on the final page of Appendix E.




                                                                                       35
           Appendix E. Market Research Conducted (cont’d)
           Noncompetitive Contracts Awarded by ACC-APG Contracting Center From FY 2009 Through FY 2010
                                     Estimated                                                        Results of Market                          Market Research
                                                                                                  Research or Justification      Supporting
         Contract Number            Value on the           Specific Steps Performed                                                                Considered
                                                                                                     for Not Conducting         Documentation
                                       J&A                                                            Market Research                               Adequate
                                                         A Sources Sought Announcement              Only this contractor can
    29   W15P7T-10-D-S003             $5,000,000          was posted on the FedBizOpps                currently meet the             J&A               Yes
                                                                    Web site.                    Government’s requirements.
                                                                                                    Only this contractor can
                                                            The Government’s technical
                                                                                                    meet the Government’s         Statement of
                                                           experts made numerous calls;
    30   W15P7T-10-C-S225                N/A  2
                                                                                                 urgent requirements because     urgency memo          No3
                                                         however, specific details were not
                                                                                                  they own the technical data
                                                                    provided.
                                                                                                   packages for these items.
1
  Although market research was not conducted, the rationale provided for not conducting research was considered appropriate.
2
  ACC-APG contracting personnel did not provide a J&A for contract W15P7T-10-C-S225.
3
  Although market research was conducted, the market research was not adequately documented.


FedBizOpps         Federal Business Opportunities
J&A                Justification and Approval




                                                                                         36
Department of the Army Comments




                Click to add JPEG file




                                  37
Click to add JPEG file




                 38
Click to add JPEG file




                 39
Click to add JPEG file




                 40
Click to add JPEG file




                 41
